No. 20-___
IN THE

Supreme Court of the United States
SELEDONIO MARTINEZ,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner Seledonio Martinez, through undersigned counsel, asks leave to
file the attached petition for a writ of certiorari without prepayment of costs and to
proceed in forma pauperis. Counsel was appointed in the United States Court of
Appeals for the Fourth Circuit pursuant to 18 U.S.C. ยง 3006A.
This the 15th day of January, 2021.

Respectfully submitted,
/s/ Jennifer C. Leisten
JENNIFER C. LEISTEN
Assistant Federal Public Defender
Counsel of Record
Eastern District of North Carolina
150 Fayetteville St., Suite 450
Raleigh, NC 27601
(919) 856-4236
jennifer_leisten@fd.org
Counsel for Petitioner

